U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

November 19, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Jose Susumo Azano v. United States of America,
S.CtNo. 19-568

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 25,
2019, and placed on the docket on October 30, 2019. The government's response is due on
November 29, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including December 30, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0568
MATSURA, JOSE SUSUMO AZANO
USA

CHARLES M. SEVILLA
402 WEST BROADWAY
SUITE 720
SAN DIEGO, CA 92101
619-232-2222
CHUCK@CHARLESSEVILLA.COM

